JULY 20, 2007
  AUDIT REPORT




                                                      OFFICE OF AUDITS




      INTERNAL CONTROLS OVER NASA’S TRANSIT
       SUBSIDY PROGRAM AT HEADQUARTERS AND
       GODDARD SPACE FLIGHT CENTER NEEDED
                   IMPROVEMENT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-07-022 (ASSIGNMENT NO. A-06-019-00)
Final report released by:


   signed

Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

DoD          Department of Defense
GEWA         Goddard Employees’ Welfare Association
GPR          Goddard Procedural Requirement
HRMD         Human Resources Management Division
IRS          Internal Revenue Service
NHQ          NASA Headquarters
NPD          NASA Policy Directive
OMB          Office of Management and Budget
SOP          Standard Operating Procedure
PFSS         Parking and Fare Subsidy System


                                                      REPORT NO. IG-07-022
JULY 20, 2007




                                                                             OVERVIEW

      INTERNAL CONTROLS OVER NASA’S TRANSIT SUBSIDY
    PROGRAM AT HEADQUARTERS AND GODDARD SPACE FLIGHT
                CENTER NEEDED IMPROVEMENT

                                                                               The Issue

  The National Aeronautics and Space Administration (NASA) Office of Inspector General
  initiated the audit of NASA’s Transit Subsidy Program because we received information
  that NASA was providing transit subsidies to individuals who were not eligible to receive
  them. We conducted audit work at NASA Headquarters and at Goddard Space Flight
  Center (Goddard) to determine whether NASA had adequate internal controls over the
  transit subsidies distributed to employees in the National Capital Region. Details of the
  audit’s scope and methodology are in Appendix A.

                                                                                   Results

  The NASA Headquarters Human Resources Management Division (HRMD) needed to
  improve internal controls as well as establish additional internal controls over the transit
  subsidies that it distributes. HRMD’s Standard Operating Procedure (SOP) provides
  guidance on eligibility requirements for the Transit Subsidy Program; however, the
  controls used to ensure compliance with eligibility requirements needed improvement.
  Specifically, for the period that we reviewed, April through June 15, 2006, we found that
  428 of the 1,058 Transit Subsidy Program participants were not eligible to receive the
  subsidy. Those 428 participants consisted of 235 Center employees detailed to
  Headquarters, 4 individuals working at NASA under the Intergovernmental Personnel
  Act, 7 Department of Defense employees, 147 personnel no longer employed at NASA
  Headquarters, 28 personnel who were listed as eligible to receive both transit and parking
  subsidies, 4 NASA Headquarters personnel detailed to Centers, and 3 contractors.

  Of the 428 ineligible participants, 62 received transit subsidies totaling $16,122 during
  the April through June 2006 distribution period. Specifically,

      •   49 of the 235 Center employees detailed to Headquarters received transit
          subsidies totaling $13,502;

      •   8 of the 147 personnel no longer employed at NASA Headquarters received
          transit subsidies totaling $1,345;



REPORT NO. IG-07-022
                                                                                         OVERVIEW



        •   3 of the 4 individuals working at NASA under the Intergovernmental Personnel
            Act received transit subsidies totaling $675; and

        •   2 of the 7 Department of Defense employees received transit subsidies totaling
            $600.

     The Transit Subsidy Program included ineligible participants because HRMD did not
     apply the eligibility requirements in accordance with its SOP.

     HRMD also did not have internal controls to account for fare cards purchased, on hand,
     and distributed or to account for Smart Cards. Specifically, HRMD did not have
     procedures in place requiring the reconciliation of fare cards ordered to those received;
     the amount of fare cards on hand to the amount distributed and signed for; or the physical
     distribution (fare cards) to electronic distribution (Smart Cards). Internal controls for
     reconciliation are required in order to verify inventory, determine whether fare cards
     were accurately distributed, and ensure participants are not receiving duplicate subsidies
     (through both physical and electronic distribution). (See Finding A.)

     Overall, the internal controls that Goddard established were effective; however, we found
     instances where controls for reconciling fare cards, updating the Transit Subsidy Program
     database, and safeguarding the fare cards either were nonexistent or could be improved.
     Specifically, Goddard’s Transit Subsidy Program administrator did not reconcile the fare
     cards after each monthly distribution and Goddard had not established written procedures
     for reconciling undistributed fare cards. The net effect of not reconciling the fare cards
     for the 6-month period that we reviewed, January through June 2006, was a loss of $995
     in fare cards. Monthly reconciliations could ensure that Goddard identifies errors, theft,
     or abuse. Goddard also needed to implement a procedure to ensure that the program
     administrator is aware of all personnel departures in order to remove participants from
     the database. Finally, we found that Goddard was not adequately safeguarding the fare
     cards. Because fare cards can be used on the public transportation system or sold by
     anyone who possesses them, they need to be safeguarded and protected as if they were
     cash.

     During the audit, Goddard’s Management Operations Directorate, which administers the
     Transit Subsidy Program at Goddard, took immediate corrective actions to resolve the
     issues that we identified. Specifically, Goddard implemented reconciliation processes,
     established procedures for notifying the program administrator when program
     participants leave Goddard and for removing them from the database, and installed a safe
     to secure the fare cards. (See Finding B.)

     Management Action

     We recommended that HRMD recover the $16,122 in erroneous transit subsidy
     distributions, ensure that participants comply with existing eligibility requirements,



ii                                                                           REPORT NO. IG-07-022
OVERVIEW



  correct the subsidy database, and develop a Headquarters directive for the Transit
  Subsidy Program.

  In response to a draft of this report, the Assistant Administrator for Infrastructure and
  Administration nonconcurred with the recommendation to recover the $16,122 in
  erroneous transit subsidy distributions, stating that it would not be cost-effective to
  recover the debt, and has directed HRMD to request a waiver. The Assistant
  Administrator concurred with the recommendations to ensure that participants comply
  with existing eligibility requirements, correct the subsidy database, and develop a
  Headquarters directive. See Finding A for our evaluation and disposition of
  management’s comments on the draft report and Appendix B for the full text of
  management’s comments.

  We consider management’s comments to be responsive to the intent of our
  recommendations, and they are resolved. The recommendation to correct the subsidy
  database is closed, and we will close the others upon verification that the corrective
  actions have been completed.




REPORT NO. IG-07-022                                                                          iii
JULY 20, 2007




                                                          CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Internal Control Requirements ___________________________ 1
      Objective ____________________________________________ 2
      Other Matters of Interest _______________________________ 2

  RESULTS
      Finding A: Internal Controls at NASA Headquarters Needed
                   Improvement_______________________________ 4
      Finding B: Internal Controls at Goddard Needed Improvement _ 14

  APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls _____________________________ 20
      Prior Coverage_______________________________________ 21

  APPENDIX B
      Management Comments _______________________________ 22

  APPENDIX C
      Report Distribution ___________________________________ 25




REPORT NO. IG-07-022
JULY 20, 2007




                                                                                     INTRODUCTION


Background

  Executive Order. The President issued Executive Order 13150, “Federal Workforce
  Transportation,” on April 21, 2000, to expand Federal employees’ commuting alternatives
  in an effort to reduce employees’ contribution to traffic congestion and air pollution. The
  Executive Order requires that Federal agencies implement a Transportation Fringe Benefit
  Program (Transit Subsidy Program) for their qualified Federal employees in the National
  Capital Region.1 The Transit Subsidy Program encourages the use of mass transportation
  and vanpools by providing transit passes up to the amount of an employee’s commuting
  costs, not to exceed the maximum level allowed by the Internal Revenue Service (IRS). As
  of October 2006, the maximum amount allowed was $105 a month.

  NASA Transit Subsidy Program. NASA established a Transit Subsidy Program and
  related policy in 1991 based on General Services Administration Bulletin FPMR D-227,
  issued on July 11, 1991. NASA updated its policy in 1995 to incorporate requirements in
  Public Law 103-172, “Federal Employees Clean Air Incentives Act,” and again in 2000 to
  implement Executive Order 13150. NASA’s Transit Subsidy Program for the National
  Capital Region allows qualified civil service employees at NASA Headquarters and
  Goddard Space Flight Center (Goddard) to receive transit subsidies up to the equivalent of
  their commuting costs, not to exceed the IRS-established limit. At Headquarters, the
  Human Resources Management Division (HRMD), under the Associate Administrator for
  Institutions and Management, administers the Transit Subsidy Program. Goddard’s
  Information and Logistics Management Division, within the Management Operations
  Directorate, administers the Transit Subsidy Program at Goddard.

  In March 2007, NASA Headquarters reported 760 participants in the Transit Subsidy
  Program at a monthly cost of about $76,151 and Goddard reported 107 participants at a
  monthly cost of about $11,125. NASA procures the transit passes at cost from the
  Washington Metropolitan Area Transit Authority (Metro).


Internal Control Requirements

  The Office of Management and Budget (OMB) Circular No. A-123, “Management’s
  Responsibility for Internal Control,” December 21, 2004, paragraph 4, states that Federal

  1
      The Executive Order defines the National Capital Region as the District of Columbia; the Maryland Counties
      of Prince George’s and Frederick; the Virginia Counties of Arlington, Fairfax, Loudoun, and Prince
      William; “and all cities now or hereafter existing in Maryland or Virginia within the geographic area
      bounded by the outer boundaries of the combined area of said counties.”



REPORT NO. IG-07-022                                                                                           1
                                                                                       INTRODUCTION



    agency management must take systematic and proactive measures for establishing,
    assessing, correcting, and reporting on internal controls to improve the accountability and
    effectiveness of programs. In addition, paragraphs I, II, and III of the Circular state that
    management is responsible for establishing and maintaining internal controls such as
    approvals, authorizations, verifications, reconciliations, performance reviews, and
    maintaining records and documentation.

    NASA Policy Directive (NPD) 1200.1D, “NASA Internal Control and Accountability,”
    May 15, 2006, paragraph 1.a, states that NASA management will establish controls to
    provide reasonable assurance that

       •   managed activities achieve their intended results;

       •   managed activities are protected from waste, fraud, unauthorized use,
           misappropriation, and mismanagement;

       •   resources are used consistent with NASA’s mission;

       •   laws and regulations are followed; and

       •   reliable and timely information is obtained, maintained, reported, and used for
           decision-making.

    Paragraph 1.d(5) states that managers will periodically evaluate the effectiveness of existing
    controls over operations and processes using internal and external audits.


Objective

    Our objective was to determine whether NASA Headquarters and Goddard had adequate
    internal controls over the transit subsidies they distribute in the National Capital Region.
    See Appendix A for details of the audit’s scope and methodology and a list of prior
    coverage.


Other Matters of Interest

    During our audit, we performed a review of the NASA Headquarters Parking Subsidy
    Program to ensure that employees were not participating in both programs. We found that a
    contractor had received a parking subsidy. According to NPD 1541.2J, “Criteria for the
    Assignment of Parking Permits and Parking Procedures,” July 29, 2003, Attachment A,
    paragraphs 1.a and 2, NASA-subsidized parking is limited to qualified Headquarters civil
    service employees only. Initially, a qualified civil service employee signed up to receive
    subsidized parking and included a contractor as a participating carpooler. The qualified
    employee departed NASA on March 18, 2006, but did not return the parking pass to NASA.


2                                                                            REPORT NO. IG-07-022
INTRODUCTION



  The contractor continued using the parking pass for the remainder of March 2006 and from
  April until August 10, 2006, when she turned the parking pass over to NASA.

  NASA Parking Subsidy Program participants pay for a subsidized parking pass on a
  quarterly basis. For two quarters (April through June 2006 and July through September
  2006), the contractor paid the subsidized parking fee of $120 per quarter. However, the
  contractor should have paid the $12 daily rate.

  In August 2006, we notified the Director, Facilities and Administrative Services Division,
  that the contractor should be removed from the Parking Subsidy Program, that NASA
  should seek reimbursement for the time period that the contractor improperly received
  subsidized parking, and that the Division should implement internal controls to prevent this
  from occurring in the future. The Director took immediate action by removing the
  contractor from the Parking Subsidy Program and recovered $1,068 from the contractor.




REPORT NO. IG-07-022                                                                             3
                                                                                          RESULTS




                                             FINDING A: INTERNAL CONTROLS
                                                   AT NASA HEADQUARTERS
                                                      NEEDED IMPROVEMENT

           HRMD did not establish adequate internal controls over the Transit Subsidy
           Program. Specifically, for the period that we reviewed, the April through June 2006
           distribution period, 428 of the 1,058 participants (40 percent) were not eligible to
           receive transit subsidies but were included in the program because HRMD did not
           comply with NASA Headquarters (NHQ) Standard Operating Procedure (SOP),
           “Fare Subsidy,” October 30, 2003. In addition, HRMD did not
               •   reconcile fare cards and tokens HRMD received to the vendor invoices,
               •   reconcile physical distribution (fare cards) to electronic distribution (Smart
                   Cards),
               •   adequately reconcile the quarterly physical distribution, and
               •   adequately account for Smart Cards.

           HRDM did not perform those internal controls because they were not included in the
           SOP. As a result, HRMD distributed $16,122 in transit subsidies to 62 ineligible
           participants during the distribution period.


Headquarters Transit Subsidy Program Guidance

    The SOP describes the Transit Subsidy Program, defines eligibility requirements, and
    specifies program limitations. Specifically, the SOP includes the following guidelines:

       •   Appropriated funds may be used, if available, and if the subsidy does not exceed
           the IRS limit.

       •   The program is open to NASA Headquarters civil service employees. Detailees,
           Center employees participating in training programs at Headquarters, consultants,
           contractors, and other personnel who are not on NASA Headquarters’ payroll are
           not considered Headquarters employees. However, Center employees whose duty
           station is NASA Headquarters may receive the subsidy.

       •   Eligible personnel must use the approved means of transportation to and from
           work at least 10 days during the month.

       •   Personnel cannot receive subsidized parking as well as the transit subsidy.




4                                                                           REPORT NO. IG-07-022
RESULTS



Headquarters Transit Subsidy Program

  HRMD administers the Transit Subsidy Program at Headquarters. For the period that we
  reviewed, April through June 15, 2006, HRMD reported 1,058 participants in the Transit
  Subsidy Program.

  Participants in the program can receive their transit subsidy through physical distribution
  or electronic distribution. If the participant chooses physical distribution, then the
  participant receives transit subsidies in the form of fare cards and tokens, which HRMD
  personnel distribute in the NASA Headquarters lobby each quarter. For electronic
  distribution, the participant chooses the Smart Benefits Option. HRMD implemented the
  Smart Benefits Option in December 2005 and provided each participant choosing
  electronic distribution with a Smart Card. Participants download their authorized transit
  subsidy directly from a Metro kiosk each month. Of the 1,058 participants in the
  Headquarters Transit Subsidy Program, 199 (18.8 percent) chose the Smart Benefits
  Option.

  To enroll in the Transit Subsidy Program, an employee must complete NHQ Form 201,
  “Application for Transit Benefit.” For the Smart Benefits Option, the employee must
  also complete NHQ Form 300, “NASA HQ Transit SmartBenefit Enrollment/Change
  Application.” HRMD personnel review submitted applications for completeness; accept
  completed applications; and, if approved, enter the information into the Parking and Fare
  Subsidy System (PFSS) database. Both Transit Subsidy Program and Parking Subsidy
  Program personnel can access the PFSS database (read access); however, they can make
  changes only in their respective program area (write access). If an employee chooses the
  Smart Benefits Option, HRMD personnel input the participant’s name, Smart Card
  number, and authorized monthly amount into Metro’s Smart Benefits Program database.
  Although Metro owns and maintains that database, HRMD has access to NASA’s
  information within the database and can generate reports as needed.

  In September 2004, Goddard2 awarded a firm-fixed-price, indefinite-quantity contract to
  Metro for $718,000. Under that contract, NASA Headquarters purchases, at cost, fare
  cards, tokens, and Smart Cards from Metro. The contract has a performance period of
  5 years and a ceiling of $8 million. As of January 2007, the contract totaled
  $2.59 million ($1.13 million was added in September 2005 and $742,000 was added in
  January 2007).




  2
      Goddard issued the contract for NASA Headquarters.



REPORT NO. IG-07-022                                                                            5
                                                                                                                  RESULTS



Ineligible Personnel Were Included in the Transit
  Subsidy Program

    HRMD did not have adequate internal controls over the Transit Subsidy Program at
    NASA Headquarters. Specifically, HRMD allowed ineligible employees to participate in
    the Transit Subsidy Program. During the April through June 2006 distribution period,
    428 of the 1,058 participants (40 percent) were not eligible. As a result, HRMD
    distributed transit subsidies totaling $16,122 to 62 individuals who were not eligible to
    participate in the program, as shown in Table 1.

                         Table 1. Distribution of Transit Subsidies to Ineligible Participants
                              During the April through June 2006 Distribution Period

                                                                        Number Who
     Ineligible Participants                        In Database        Received Subsidy         Subsidy Distributed
     Center employees detailed to
       Headquarters                                      235                    49                     $13,502
     Individuals under the
       Intergovernmental Personnel Acta                    4                    3                           675
     Department of Defense (DoD)
       employees under a reimbursable
       agreementb                                          6                    1                           300
     DoD employees under a
       non-reimbursable agreementc                         1                    1                           300
     Employees no longer employed at
       Headquarters                                      147                     8                        1,345
     Employees in both Transit Program
       and Parking Program                                28                    0                             0
     Headquarters detailees                                4                    0                             0
     Contractors                                           3                    0                             0
          Total                                          428                   62                      $16,122
     a
         The Intergovernmental Personnel Act allows for the assignment of personnel between the Federal
         Government and non-Federal entities. Personnel at NASA under this program are not on the Headquarters’
         payroll and, therefore, are not eligible for the subsidy.
     b
         DoD continues to pay the employee’s salary, and NASA reimburses DoD.
     c
         DoD continues to pay the employee’s salary, and NASA does not reimburse DoD.


    Distribution of subsidies to ineligible participants occurred because HRMD did not
    comply with the eligibility requirements in the NHQ SOP and did not coordinate
    requirements for the Transit Subsidy Program with other Headquarters offices.
    Specifically, HRMD did not ensure that applicants were civil service employees
    officially assigned to Headquarters and did not update the PFSS database to reflect
    personnel actions in a timely manner.



6                                                                                              REPORT NO. IG-07-022
RESULTS



  Center Employees Detailed to Headquarters. We identified 235 employees listed in
  the PFSS database that had duty stations other than Headquarters and, therefore, were not
  eligible for the Transit Subsidy Program. Of the 235 employees, 49 (20.9 percent)
  received benefits totaling $13,502 during the April through June 2006 distribution period.
  The SOP states that the Transit Subsidy Program is only available to Headquarters civil
  service employees and that detailees are not eligible, with the following exception:

          Employees of other NASA Centers who are duty stationed at NASA Headquarters
          may also receive the fare subsidy. These employees will be required to furnish the
          Headquarters Human Resources Management Division with a copy of their Standard
          Form 50 (Notification of Personnel Action) documenting their official duty station in
          order to be eligible.

  The SOP does not define a detailee. However, the Office of Personnel Management
  Operating Manual Update 45, “The Guide to Processing Personnel Actions,” August 6,
  2006, Chapter 14, section 2(f), describes a detailee as an employee who is considered for
  pay and strength count purposes to be permanently occupying his or her regular position.
  The Manual also states, “Unless the agency chooses to use a Standard Form 50
  (Notification of Personnel Action), a detail . . . is documented with a Standard Form 52,
  Request for Personnel Action.”

  HRMD did not request copies of either Standard Form (50 or 52) to document
  Headquarters as the employees’ official duty station; documentation is required by the
  SOP. In addition, HRMD did not have procedures in place to receive notification when
  the official duty station of a Headquarters employee changes. According to the SOP, if a
  participant does not pick up his or her transit subsidy for more than two consecutive
  quarters, HRMD is required to remove the participant from the database.

  Participants Not NASA Civil Service Employees. HRMD approved 11 participants
  who were not NASA civil service employees and, therefore, were not eligible to receive
  transit subsidies. The ineligible participants were approved because HRMD personnel
  did not properly apply the eligibility requirements of the SOP, which states that the
  Transit Subsidy Program is open only to NASA Headquarters civil service employees.
  Consultants, contractors, and other personnel who are not on NASA Headquarters’
  payroll are not considered Headquarters employees. Of the 11 ineligible participants,
  7 were Department of Defense (DoD) employees on detail to NASA. The SOP does not
  address transit subsidies for military detailees, and we were unable to identify any policy
  or procedure that did.

  Of the seven DoD employees, six were military officers temporarily assigned to
  Headquarters. These officers were officially detailed to the astronaut program at Johnson
  Space Center, Texas, on a reimbursable basis. One of the six received transit subsidies
  from NASA totaling $300. Because the six military officers’ official duty station is
  Texas, they do not meet the eligibility requirements as stated in the SOP. The seventh
  DoD employee, a military liaison officer, was assigned to NASA Headquarters and the
  Pentagon on a non-reimbursable basis. He also received transit subsidies from NASA


REPORT NO. IG-07-022                                                                              7
                                                                                          RESULTS



    totaling $300. The Executive order allows military personnel within the National Capital
    Region to receive transit subsidies. However, the officer was not entitled to receive
    NASA transit subsidies because he was not a NASA employee nor was he working on a
    reimbursable basis. As of March 21, 2007, HRMD had not removed the DoD employees
    from the database because HRMD was still assessing whether a policy change was
    needed.

    Of the four individuals working at NASA under the Intergovernmental Personnel Act,
    three received subsidies, for a combined total of $675, during the April through June
    2006 distribution period. In November 2006, HRMD removed the four
    Intergovernmental Personnel Act employees from the PFSS database.

    Ineligible Participants Included in PFSS Database. The PFSS database listed
    182 participants who should not have been in the database because they were not eligible
    to receive transit subsidies:

       •   147 were no longer employed at Headquarters. As of March 21, 2007, HRMD
           was in the process of removing their names from the database.

       •   28 were listed as eligible to receive both transit and parking subsidies. As of
           March 21, 2007, HRMD was in the process of contacting each of the participants
           to verify which program they had chosen.

       •   4 were listed as NASA Headquarters personnel, but had been detailed to a NASA
           Center.

       •   3 were contractors. HRMD removed their names from the PFSS database in
           November 2006.

    None of these 182 participants received transit subsidies during the April through
    June 2006 distribution period.

    The SOP states that failure to pick up the transit subsidy for two consecutive quarters will
    result in termination of eligibility, unless HRMD approves an exception. In addition,
    NASA Headquarters requires each departing employee to complete an NHQ Form 60,
    “Final Checkout Record.” NHQ Form 60 requires an HRMD sign-off showing that the
    employee turned in unused fare cards, tokens, or Smart Cards. HRMD received the NHQ
    Form 60 for the 147 participants who departed NASA; however, HRMD did not remove
    them from the PFSS database in a timely manner.

    In addition, the SOP states that an employee who is receiving another form of
    transportation subsidy, such as subsidized parking at Headquarters or any other Federal
    agency’s garage, is not eligible to receive the transit subsidy. HRMD has an internal
    control in place within the PFSS database that flags any participant listed in one of the
    programs who attempts to participate in the other. HRMD can override this internal



8                                                                           REPORT NO. IG-07-022
RESULTS



  control to facilitate changing a participant from one program to the other. However, both
  Transit Subsidy Program personnel and Parking Subsidy Program personnel allowed
  participants to change between the two programs without completing the proper NHQ
  Form 202, “Request for Change in Commuting Status,” and without removing
  participants from the database of the program that they were leaving.


Transit Subsidy Program Assets Were Not Adequately
  Accounted For

  HRMD did not properly implement internal controls to reconcile and account for Transit
  Subsidy Program assets. The Transit Subsidy Program provides fare cards and tokens;
  anyone who possesses them can use the cards or tokens on public transportation or can
  sell them. Therefore, HRMD should account for and safeguard fare cards and tokens in
  the same manner as cash. Paragraphs C and E of OMB Circular A-123 state that
  management should have controls in place to help ensure that agency objectives are met
  and should monitor the effectiveness of internal controls in the normal course of
  business. In addition, OMB calls for periodic reviews and reconciliations of data to be
  included as part of the regular assigned duties of program personnel. The NHQ SOP,
  however, does not require that the program manager perform any reconciliations or
  physical inventories. To supplement the SOP, HRMD developed internal procedures, the
  “Process to Manage the Fare Subsidy Program,” describing responsibilities under the
  Transit Subsidy Program. Those internal procedures established the following positions:

      •   recordkeeper, to input information into the PFSS database.

      •   distributor, to issue fare cards and tokens during physical distribution.

      •   reconciler, to be responsible for inventory and preparing reconciliation
          memorandums.

  However, HRMD did not implement adequate reconciliation procedures as described by
  OMB Circular A-123 to safeguard Transit Subsidy Program assets.

  Reconciliations To Metro Invoices Not Performed. HRMD did not adequately
  reconcile the fare cards and tokens actually received from Metro to the purchase orders or
  invoices. When the fare cards and tokens ordered from Metro arrive, the reconciler
  compares the invoices to the bill of lading, but not to the inventory by counting the fare
  cards and tokens actually received. HRMD should reconcile the fare cards and tokens
  actually received to the invoices and report any discrepancies.

  This deficiency was previously identified in an HRMD internal risk assessment, “Fare
  Subsidy Program Controls, Risk Assessment, Recommendations, and Management
  Response,” November 3, 2004. The risk assessment recommended that the recordkeeper
  and reconciler jointly receive the transit subsidies and jointly count them. Once the count


REPORT NO. IG-07-022                                                                            9
                                                                                            RESULTS



     is complete, the reconciler should place the fare cards and tokens in the safe. HRMD
     partially implemented that recommendation. The internal procedures only require the
     reconciler to receive and approve all invoices from Metro before placing them in the safe.
     The reconciler’s responsibilities do not include verifying that the fare cards and tokens
     actually received match the invoice. As a result, NASA had no assurance that the
     inventory reported on the invoices was actually received.

     Reconciliations of Quarterly Distributions Not Adequately Performed. HRMD did
     not reconcile the amount of distributed fare cards and tokens with the amount signed for
     by participants. Specifically, the distributor did not maintain a running total of fare cards
     and tokens distributed to reconcile with the signature sheet. Such a control is required in
     order to determine whether fare cards and tokens were accurately distributed and also is
     needed to determine whether a variance exists.

     This deficiency was also identified in the HRMD internal risk assessment. The risk
     assessment recommended that HRMD appoint a reconciler who would be responsible for
     determining whether the distributed subsidies corresponded to the amount signed for. In
     addition, the assessment recommended that the reconciler be responsible for preparing a
     quarterly memorandum to provide documentation of fare cards and tokens on hand, the
     dollar value of cards and tokens distributed, and an ending balance. HRMD partially
     implemented that recommendation. Specifically, the reconciler prepares a quarterly
     reconciliation certification memorandum. However, HRMD does not reconcile the
     number and dollar value of fare cards and tokens distributed to the dollar value signed
     for. Instead, the memorandums simply show the ending balance from the previous period
     and the balance on hand, noting orders placed when applicable. Information on amounts
     distributed is arrived at through those numbers, not by any documentation of actual
     distribution. In addition, the reconciler’s certification memorandum for the April through
     June 2006 distribution period does not include the number of fare cards and tokens
     distributed. Because HRMD does not maintain documentation that shows the dollar
     value of fare cards and tokens actually distributed, we could not perform a reconciliation
     to determine whether differences existed. This occurred because the SOP does not
     include a requirement for the distributor and reconciler to perform those tasks. As a
     result, HRMD was not fully accounting for transit subsidies.

     Reconciliations of Physical and Electronic Distribution and Databases. HRMD did
     not reconcile the physical distribution (fare cards) to the electronic distribution (Smart
     Cards) to ensure that individuals did not receive duplicate subsidies. As a result, six
     participants received a physical distribution and an electronic distribution, totaling
     $1,330, during the April through June 2006 distribution period. HRMD could not
     provide documentation to support either the physical or the electronic subsidies.

     In addition, HRMD did not reconcile the databases used for the Smart Benefits Option.
     Specifically, our comparison of Metro’s Smart Benefits Program database with the PFSS
     database showed that 34 participants’ subsidy amount was higher in the Metro database
     than in PFSS, with a combined difference of $290 per month. Also, 14 participants listed


10                                                                            REPORT NO. IG-07-022
RESULTS



  in the Metro’s Smart Benefits Program database were not listed in the PFSS database.
  HRMD personnel could not explain the differences between the databases. As of
  January 31, 2007, HRMD had not corrected the PFSS database for the 34 participants’
  electronic distribution or added the 14 participants to the PFSS database.

  Accountability of Smart Cards Not Maintained. HRMD did not maintain full
  accountability of Smart Cards. Specifically, HRMD did not have records documenting
  the number of Smart Cards initially purchased from Metro, the number distributed, or the
  number in the safe. Although HRMD maintained a listing of damaged or returned Smart
  Cards, the listing was incomplete because HRMD did not always collect and maintain
  complete information for Smart Cards that were reissued, such as who the card was
  reissued to, the justification, or the date of each transaction. We identified three Smart
  Cards that HRMD recorded as reissued from one person to another; however, those cards
  were not included in the active Smart Card lists generated by Metro’s database for the
  April through June 2006 distribution period. Therefore, HRMD did not know whether
  any of the Smart Cards were missing.


HRMD Policy Is Out of Date

  HRMD had not updated its October 2003 SOP to reflect subsequent changes in the
  Transit Subsidy Program. Specifically, the SOP addresses the physical distribution of
  fare cards and tokens but does not include guidance on the Smart Benefits Option, which
  was implemented in December 2005. In addition, the internal procedures HRMD
  developed in 2005 had not been incorporated in the SOP. Also, the SOP does not include
  HRMD roles and responsibilities; guidance for the periodic and timely updating of the
  PFSS database; or inventory and reconciliation procedures.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Director, HRMD, should recover from the 62 ineligible
participants the $16,122 they received as transit subsidies.

  Management’s Response. The Assistant Administrator for Infrastructure and
  Administration nonconcurred, stating that HRMD agreed that it had made an
  administrative error when it erroneously provided transit subsidy payments to ineligible
  personnel, but that HRMD planned to request a waiver from collecting the funds. The
  Assistant Administrator stated that it may not be possible to locate all 62 individuals and
  that it would be very labor intensive and not cost-effective to recover the debt. The debt
  collection costs for NASA Headquarters range from $400 to $500 per case and would
  cost NASA anywhere from $24,800 to $31,000 to collect the $16,122. HRMD plans to
  implement proper checks and balances to ensure future integrity of the program.



REPORT NO. IG-07-022                                                                            11
                                                                                            RESULTS



     Evaluation of Management’s Response. Management’s comments are responsive. We
     agree that it would be difficult and may not be cost-effective to seek reimbursement from
     the 62 ineligible personnel. In addition, since funding may have been authorized under
     travel orders and our audit work did not extend to reviewing travel vouchers, we surmise
     that the subsidies may have defrayed NASA travel costs. Therefore, we consider that the
     implementation of controls to prevent erroneous distribution of transit subsidies is
     sufficient to resolve the recommendation. We will close it upon receipt of the approved
     waiver and verification that checks and balances have been put into place. We request
     that management provide us with an estimated completion date for the proposed
     corrective action.

Recommendation 2. The Director, HRMD, should verify that all Transit Subsidy Program
participants are NASA Headquarters civil service employees or have an SF-50 showing
Headquarters as their official duty station.

     Management’s Response. The Associate Administrator concurred, stating that HRMD
     recognized that its internal controls needed improvement. HRMD will update the NHQ
     SOP to clarify eligibility requirements. In addition, HRMD will ensure that enrollment
     forms are prepared in compliance with Headquarters policy and verification of employee
     status is conducted when HRMD receives an NHQ Form 201 or NHQ Form 300.

     Evaluation of Management’s Response. Management’s comments are responsive. We
     consider the recommendation to be resolved and will close it upon verification that the
     SOP has been updated or incorporated into the Headquarters policy directive addressed in
     Recommendation 4. We request that management provide us with an estimated
     completion date for the proposed corrective action.

Recommendation 3. The Director, HRMD, should correct the PFSS database to include all
current participants and the accurate dollar value of transit subsidies received.

     Management’s Response. The Assistant Administration concurred, stating that,
     subsequent to the audit, HRMD conducted a 100 percent review of the PFSS database
     and updated it to ensure that all active participants met eligibility requirements and the
     correct dollar amounts were recorded.

     Evaluation of Management’s Response. Management’s comments are responsive. We
     consider the recommendation to be resolved and closed.

Recommendation 4. The Director, HRMD, should develop a Headquarters policy directive
for the Transit Subsidy Program, which

        a. incorporates guidance relating to military detailees;

        b. defines the process, including internal controls, for administering and monitoring
           the Transit Subsidy Program, including the Smart Benefits Option; and



12                                                                            REPORT NO. IG-07-022
RESULTS



     c. establishes a monitoring or review process.

  Management’s Response. The Assistant Administrator concurred, stating that HRMD
  is in the process of reviewing its current process and policies to ensure that adequate
  internal controls are in place, management and administration of the program is sound,
  and inventory is accounted for.

  Evaluation of Management’s Response. Management’s comments are responsive. The
  recommendation is resolved but will remain open until the revised guidance is issued.
  We request that management provide us with an estimated completion date for the
  proposed corrective action.




REPORT NO. IG-07-022                                                                        13
                                                                                            RESULTS




                                              FINDING B: INTERNAL CONTROLS
                                                        AT GODDARD NEEDED
                                                              IMPROVEMENT

            Goddard officials had established effective internal controls over the Transit Subsidy
            Program; however, additional controls were needed. Specifically, we determined
            that Goddard officials

               •   did not reconcile fare cards after each distribution period to the beginning
                   and ending balances because there was no requirement to do so,

               •   did not remove ineligible employees from the PFSS database because the
                   program administrator was not notified when employees left Goddard, and

               •   did not adequately safeguard the fare cards.

            As a result of the inadequate or missing controls, Goddard had an increased risk that
            ineligible participants could obtain transit subsidies and that fare cards could be lost.
            During the audit, Goddard took immediate corrective actions to reduce the risk.


Goddard Guidance on the Transit Subsidy Program

     Goddard Procedural Requirement (GPR) 9730.1A, “Transportation Fringe Benefit
     Program for Employees Utilizing Public Mass Transportation,” January 10, 2005, is the
     Goddard implementing guidance for the Transit Subsidy Program. The GPR states that
     the Transit Subsidy Program is open to Goddard civil service employees, including
     employees who are part-time, term, temporary assignment group, temporary, and in the
     Cooperative Education Program. Detailees, consultants, contractors, and other
     employees who are not on Goddard’s payroll are not considered Goddard employees and
     are not eligible for the subsidy. Although GPR 9730.1A expired on February 28, 2006,
     Goddard considered it applicable until GPR 9730.1B, “Transportation Fringe Benefit
     Program,” was issued on January 8, 2007.


Goddard Transit Subsidy Program Summary

     Goddard’s Information and Logistics Management Division, within the Management
     Operations Directorate, administers the Transit Subsidy Program at Goddard. Goddard
     issued $115,000 in fare cards from August 1, 2005, through July 31, 2006. Goddard
     procures the fare cards at cost from Metro. The Transit Subsidy Program administrator
     provides the fare cards to the Goddard Employees’ Welfare Association (GEWA)
     Exchange store. Exchange store personnel distribute the fare cards each month to


14                                                                            REPORT NO. IG-07-022
RESULTS



  participating employees and maintain the certification logs and undistributed fare cards.
  The program administrator instituted various internal controls, to include

      •    using the Goddard badging database to verify that applicants are Goddard civil
           service employees,
      •    counting the fare cards received from Metro and reconciling inventory to the
           number and dollar value of fare cards ordered,
      •    obtaining a receipt for the number and dollar value of the fare cards provided to
           GEWA, and
      •    requiring participants to show their Goddard badge and sign a certification sheet
           showing that the subsidy was received.

  Overall, the internal controls that Goddard established were effective; however, we found
  instances where controls for reconciling fare cards, updating the Transit Subsidy Program
  database, and safeguarding the fare cards either were nonexistent or could be improved.


Fare Card Reconciliation Not Performed

  The Transit Subsidy Program administrator did not reconcile the fare cards after each
  monthly distribution because there was no requirement to do so. GPR 9730.1A did not
  require that reconciliations be performed after every distribution period. In addition,
  neither the Information and Logistics Management Division nor GEWA had written
  procedures for GEWA’s processes for reconciling undistributed fare cards. We
  performed the reconciliations for January through June 2006 using existing Goddard
  documentation, as shown in Table 2.

                          Table 2. Reconciliation of Subsidy Distributions
                                  for January through June 2006
                Beginning    Less Value                           Actual
   Month         Balance     Distributed   Ending Balance     Ending Balance       Difference
  January       $10,990       $8,055           $2,935             $2,625            ($ 310)
  February       10,630        7,635            2,995              2,860              (135)
  March          11,100        8,265            2,835              2,835                  0
  April          10,890        7,895            2,995              2,695              (300)
  May            10,940        7,790            3,150              3,255                105
  June           10,940        8,105            2,835              2,480              (355)
   Total        $65,490      $47,745          $17,745            $16,750             ($995)

  The net effect of the 6-month period was a loss of $995 in fare cards. Internal controls
  were needed to safeguard Goddard assets and to ensure that fare cards were properly



REPORT NO. IG-07-022                                                                            15
                                                                                          RESULTS



     accounted for. Monthly reconciliations would help ensure that Goddard identifies errors,
     theft, and abuse.

     Management Action. Goddard took corrective action and began performing monthly
     reconciliations in July 2006. In addition, Goddard issued a new “Transit Subsidy
     Program Desk Guide” on November 16, 2006, which included reconciliation procedures.
     Because Goddard took corrective actions, we are not making a recommendation.


Transit Subsidy Database Not Updated

     The program administrator did not update the PFSS database to remove employees who
     were no longer eligible for the benefit. GPR 9730.1A, paragraph 4.c(2), states that
     failure to pick up a transit subsidy for 3 consecutive months results in termination of
     eligibility. If a participant does not pick up a subsidy for 3 consecutive months, then the
     administrator’s practice was to contact the person to determine whether the person should
     remain in the Transit Subsidy Program. If warranted, the program administrator removed
     the person from the PFSS database. However, the program administrator was not
     performing that function.

     As of July 10, 2006, the database contained 108 Goddard participants. We determined
     that 4 (3.7 percent) no longer worked at Goddard and that 3 of the 4 participants had been
     inactive for five consecutive distribution periods. Although Goddard’s Human
     Resources Office does not notify the program administrator when a civil service
     employee leaves Goddard, the program administrator should have identified them by
     reviewing the certification logs and removed them from the PFSS database.

     Goddard needed to implement a procedure to ensure that the program administrator is
     aware of all departures and can remove departing participants from the PFSS database.
     Removing participants from the database is important to ensure that ineligible personnel
     do not receive transit subsidies.

     Management Action. Goddard took corrective action by including procedures for
     removing personnel from the PFSS database in the Desk Guide. Specifically, the Desk
     Guide now requires the program administrator to provide a PFSS database listing to the
     Passport Agent each month and the Passport Agent to notify the program administrator if
     anyone on the list leaves Goddard. Because Goddard took appropriate corrective action,
     we are not making a recommendation.


Fare Cards Not Adequately Safeguarded

     The Information and Logistics Management Division was not adequately safeguarding
     the fare cards. GPR 9730.1A, paragraph 2.a.(2), requires the Division to “develop and
     implement a procedure to ensure that funds, property, and other program assets are


16                                                                          REPORT NO. IG-07-022
RESULTS



  properly accounted for and safeguarded against fraud, waste, abuse, mismanagement, or
  misappropriation.” In addition, the Government Accountability Office, “Standards for
  Internal Control in the Federal Government,” November 1999, states that an agency must
  establish physical control to secure and safeguard vulnerable assets—for example,
  security for and limited access to assets such as cash—which might be vulnerable to risk
  of loss or unauthorized use. At the time of our audit, the Transit Subsidy Program
  administrator locked the fare cards in a desk drawer. The dollar value of undistributed
  fare cards can range from about $2,500 to $11,000. Since fare cards can be used on the
  public transportation system or sold by anyone who possesses them, they needed to be
  safeguarded and protected as if they were cash.

  Management Action. In November 2006, the Information and Logistics Management
  Division took the corrective action of installing a safe to store the fare cards. In addition,
  the Desk Guide was updated to include procedures on safeguarding fare cards. Because
  Goddard took appropriate corrective actions, we are not making a recommendation.




REPORT NO. IG-07-022                                                                               17
APPENDIXES




                                                                                       APPENDIX A


Scope and Methodology

  We performed this audit at NASA Headquarters and Goddard from June 2006 through
  April 2007 in accordance with generally accepted government auditing standards. We
  reviewed and evaluated the internal controls associated with the Transit Subsidy Program
  at Headquarters and Goddard. We reviewed documentation dated from December 1991
  through February 2007. To understand the requirements for the Transit Subsidy Program
  and internal controls, we reviewed applicable documents, including the following:

        •    Executive Order 13150;

        •    IRS requirements in section 132, “Certain Fringe Benefits,” title 26, United States
             Code;

        •    IRS requirements in the Code of Federal Regulations, title 26, parts 1 and 602,
             “Qualified Transportation Fringe Benefits”;

        •    OMB Circular A-123;

        •    Government Accountability Office publications: “Internal Control Management
             and Evaluation Tool,” August 2001, and “Standards for Internal Control in the
             Federal Government,” November 1999;

        •    NPD 1200.1B3 and NPD 1200.1D;

        •    NASA Policy Memorandum, “Policy on Fare Subsidy for NASA Employees
             Using Public Mass Transportation,” July, 7, 1995;

        •    NASA Policy Memorandum, “Transportation Fringe Benefit Program,” July 3,
             2000;

        •    Headquarters Policy Directive 9730.1A;

        •    HRMD’s NHQ SOP; and

        •    Goddard’s GPR 9730.1A, GPR 9730.1B, and Desk Guide.



  3
      NPD 1200.1B was in effect for the distribution period that we reviewed. However, the criteria we used
      for our review remained the same in NPD 1200.1D.



REPORT NO. IG-07-022                                                                                          19
                                                                                      APPENDIX A



     At Headquarters, we interviewed personnel and obtained documentation from HRMD,
     the Facilities and Administrative Services Division, and the Procurement Operations
     Division. In addition, we met with the NASA DoD Affairs Manager concerning detailed
     military personnel and with the Integrated Enterprise Management Program Business
     Process and Application Support Office at Marshall Space Flight Center concerning the
     Federal Personnel/Payroll System. We observed the physical distribution of subsidies at
     Headquarters in September and December 2006.

     At Goddard, we interviewed personnel and obtained documentation from the Information
     and Logistics Management Division and the GEWA Exchange store. We visited the
     GEWA Exchange store to assess safeguards for the distribution of the transit subsidies.
     We also interviewed Goddard Procurement Operations Division personnel regarding the
     contract with Metro.

     Use of Computer-Processed Data. We used data generated from the PFSS database
     related to program participation. We assessed the reliability of the PFSS database by
     comparing the database’s listing of Transit Subsidy Program participants as of June 15,
     2006, with the Department of Interior’s Federal Personnel/Payroll System listing of
     NASA Headquarters employees as of June 15, 2006, and Goddard employees as of
     July 10, 2006. We performed this comparison to determine whether the PFSS database
     contained only NASA Headquarters and Goddard civil service employees. Our findings
     address issues regarding the accuracy of the PFSS database.

     In addition, we used information from Metro’s Smart Benefits Program database to
     compare with the PFSS database’s information on participants in NASA’s Smart Benefits
     Option. We compared information from the two databases to determine whether all
     participants shown by Metro as receiving benefits were in the PFSS database and
     whether electronic distribution values matched that recorded in PFSS. Finding A
     addresses issues related to the electronic distribution of transit subsidies.

     We did not perform tests to validate the accuracy of the information from the Federal
     Personnel/Payroll System database or Metro’s Smart Benefits Program database. We do
     not believe that omissions of such tests had a material effect on our findings and
     conclusions.


Review of Internal Controls

     We reviewed NASA Headquarters and Goddard policies, procedures, and internal
     controls related to the Transit Subsidy Program. We identified internal control
     weaknesses, which are discussed in Findings A and B of this report. For the internal
     control weaknesses identified at Headquarters (Finding A), our recommendations, if
     implemented, will improve controls over the Transit Subsidy Program. Goddard took
     immediate corrective actions to correct the internal control weaknesses we identified at
     Goddard (Finding B).


20                                                                          REPORT NO. IG-07-022
APPENDIX A



Prior Coverage

  During the last 5 years, we found only one report applicable to the subject audit. HRMD
  issued an internal risk assessment, “Fare Subsidy Program Controls, Risk Assessment,
  Recommendations, and Management Response,” November 3, 2004.




REPORT NO. IG-07-022                                                                        21
                      APPENDIX B




     MANAGEMENT COMMENTS




22            REPORT NO. IG-07-022
APPENDIX B




REPORT NO. IG-07-022   23
             APPENDIX B




24   REPORT NO. IG-07-022
APPENDIX C




                                                      REPORT DISTRIBUTION

National Aeronautics and Space Administration
  Administrator
  Deputy Administrator
  Chief of Staff
  Assistant Administrator for Infrastructure and Administration
     Director, Human Resources Management Division
  Director, Goddard Space Flight Center
     Director, Management Operations Directorate
         Chief, Goddard Information and Logistics Management Division

Non-NASA Organizations and Individuals
  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Defense, State, and NASA Financial Management, Office of Financial
        Management and Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member
  Senate Committee on Appropriations
     Senate Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Senate Subcommittee on Space, Aeronautics, and Related Sciences
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     House Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     House Subcommittee on Government Management, Organization, and Procurement
  House Committee on Science and Technology
     House Subcommittee on Investigations and Oversight
     House Subcommittee on Space and Aeronautics




REPORT NO. IG-07-022                                                                25
Major Contributors to the Report:
   Catherine Schneiter, Director, Financial and Institutional Management Directorate
   Ashton Coleman, Project Manager
   Lynette Westfall, Auditor




REPORT NO. IG-07-022                                                                   27
                                                                                      JULY 20, 2007
                                                                      REPORT No. IG-07-022




                                                                              OFFICE OF AUDITS

                                                               OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html to obtain additional copies of this
report, or contact the Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of Quality
Assurance, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://www.hq.nasa.gov/office/oig/hq/hotline.html#form.
The identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.
